PAUL, WEISS, RIFK IND, Vr....."\ RTON & GARRISON LLP
1285 AVENUE OF THE AMERICAS
TELEPHONE 12 12) 373-3000

- NEW YORK, NEW YORK 10019-6064

SUITES 3601 -3606 6 3610
36/F, GLOUCESTER TOWER
THE LANDMARK
15 QUEEN'S ROAD. CENTRAL
HONG KONG
TELEPHONE 1852) 2846-0300

CLAUDIA HAMMERMAN
TELEPHONE
FACSIMILE

UNIT 5201, FORTUNE FINANCIAL CENTER
5 DONG5ANHUAN ZHONGLU
CHAOYANG DISTRICT, BEIJING 100020. CHINA
TELEPHONE 186-10) 5828-6300

ALDER CASTLE
10 NOBLE STREET
LONDON EC2V 7.111, UNITED KINGDOM
TELEPHONE ,44 20) 7367 1600

(212) 373-3321
(212) 492-0321

E-MAIL: chammerman@paulweiss.com
FUKOKU SEIMEI BUILDING
2-2 UCHISAIWAICHO 2-CHOME
CHIYODA-KU, TOKYO 100-0011, JAPAN
TELEPHONE (8I-3) 3597-8101

August 5, 2021

TORONTO-DOMINION CENTRE
77 KING STREET WEST, SUITE 3100
P.O. BOX 226
TORONTO. ONTARIO M5K IJ3
TELEPHONE (4161 504-0520
2001 K STREET. NW
WASHINGTON, DC 20006-1047
TELEPHONE 1202) 223-7300

BY MESSENGER

500 DELAWARE AVENUE. SUITE 200
POST OFFICE BOX 32
WILMINGTON, DE 19899-0032
TELEPHONE 13021655-4410

Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Schmitt v. Reproductive Health Services of Planned Parenthood of
the St. Louis Region, Inc., No. 21-3
Dear Mr. Harris:
I am counsel for Respondents in the above-captioned case. The petition for a
writ of certiorari in this case was docketed on July 2, 2021. That Petition seeks
review of a June 9, 2021 judgment of the United States Court of Appeals for the
Eighth Circuit, which affirmed two orders granting preliminary injunctive relief
entered by the United States District Court for the Western District of Missouri.
However, on July 13, 2021, the Eighth Circuit sua sponte granted rehearing
en banc and vacated the judgment that is the subject of the Petition. See Order,
Reproductive Health Services of Planned Parenthood of the St. Louis Region, Inc.
v. Parson, No. 19-2882 (8th Cir. July 13, 2021) ("The opinion and judgment dated
June 9, 2021 are hereby vacated.") (attached hereto). Because that order vacated
the previous judgment and opinion, counsel for Respondents called this office to
inquire how to handle the matter, and were advised that Petitioners should notify
this Court of the new procedural posture. Respondents' counsel notified counsel for
Petitioners of this directive on July 21, 2021, and on that day, Petitioners' counsel

RECEIVED

AUG -9 2021
OFFICE OF THE ClU.S.K
SUPREME
COURT

PAUL, WEISS, RIFKIND\ ,HARTON a GARRISON LLP

indicated that he would research the appropriate procedural course and notify this
Court.'
On August 2, 2021, Petitioners' counsel advised counsel for Respondents that
Petitioners did not intend to withdraw the Petition despite the vacatur of the
judgment from which they sought review, but instead asked for Respondents'
consent to a forthcoming motion to defer consideration of the Petition and hold the
briefing schedule in abeyance pending a decision by the en banc Eighth Circuit.
Respondents did not consent to this request in advance of seeing Petitioners' motion.
Respondents intend to oppose Petitioners' motion to defer consideration if it
is made. Should this Court grant the yet-unfiled motion to defer, Petitioners
respectfully request 60 days to file a brief in opposition to the Petition following this
Court's re-scheduling of the Petition for consideration.
Thank you for your consideration in this matter.

Yours sincerely,
Claudia Hammerman

cc:

D. John Sauer, Esq.
Dawn M. Parsons, Esq.
Jim Michaels, Esq.

At the same time, Petitioners' counsel agreed to Respondents' earlier request
for a 60-day extension of their time to oppose the Petition, "Rio the extent it is
still an issue."

Ui-eiTED STATES COURT OF APPL-AS
FOR THE EIGHTH CIRCUIT
No: 19-2882
Reproductive Health Services of Planned Parenthood of the St. Louis Region, Inc., on behalf of
itself, its physicians, its staff, and its patients and DO, MSCI, FACOG Colleen P. McNicholas,
on behalf of herself and her patients
Appellees
v.
Michael L. Parson, in his official capacity as Governor of the State of Missouri and Eric Stephen
Schmitt, in his official capacity as Attorney General of the State of Missouri
Appellants
Kimberly Gardner, in her official capacity as the Circuit Attorney for the City of St. Louis
MD Jade D. James, in her official capacity as President of the Missouri State Board of
Registration for the Healing Arts, et al.
Appellants

Alliance Defending Freedom
Amicus on Behalf of Appellant(s)
Constitutional Law Scholars, et al.
Amici on Behalf of Appellee(s)
No: 19-3134
Reproductive Health Services of Planned Parenthood of the St. Louis Region, Inc., on behalf of
itself, its physicians, its staff, and its patients and DO, MSCI, FACOG Colleen P. McNicholas,
on behalf of herself and her patients
Appellees
v.
Michael L. Parson, in his official capacity as Governor of the State of Missouri and Eric Stephen
Schmitt, in his official capacity as Attorney General of the State of Missouri
Appellants

Appellate Case: 19-2882 Page: 1

Date Filed: 07/13/2021 Entry ID: 5054005

Kimberly Gardner, • --.wcr official capacity as the Circuit Attorney for the City of St. Louis
MD Jade D. James, in her official capacity as President of the Missouri State Board of
Registration for the'Healing Arts, et al.
Appellants

Alliance Defending Freedom
Amicus on Behalf of Appellant(s)
Constitutional Law Scholars, et al.
Amici on Behalf of Appellee(s)

Appeals from U.S. District Court for the Western District of Missouri - Jefferson City
(2:19-cv-04155-BP)
ORDER
On the court's own motion, rehearing en banc is granted. Judge Colloton did not
participate in the consideration or decision of this matter. The opinion and judgment dated June
9, 2021 are hereby vacated. These cases will be placed on a calendar for oral argument. Counsel
will be notified at a later date of the exact date and time of argument. Counsel shall, within ten
days, submit 30 additional copies of previously filed briefs and 8 additional copies of the
appendix. Additional briefs for rehearing due on 07/23/2021.

July 13, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2882 Page: 2

Date Filed: 07/13/2021 Entry ID: 5054005

IN THE SUPREME COURT OF THE UNITED STATES

No. 21-3

ERIC S. SCHMITT, ATTORNEY GENERAL OF MISSOURI, ET AL.,
PETITIONERS
v.
REPRODUCTIVE HEALTH SERVICES OF PLANNED PARENTHOOD OF THE ST.
LOUIS REGION, INC., ET AL.

CERTIFICATE OF SERVICE

I, Claudia Hammerman, counsel for respondent, certify that,
on August 5, 2021, one copy of the Respondents' August 5, 2021
Letter in the above-captioned case was sent, by third-party commercial carrier for delivery overnight and by electronic mail, to
the following counsel:

D. John Sauer, Esq.
Solicitor General
Office of the Missouri Attorney. General
Supreme Court Building
207 West High Street, P.O. Box 899
Jefferson City, MO 65102
(573)751-8870
John.Sauer@ago.mo.gov

Dawn M. Parsons
Shaffer Lombardo Shurin
2001 Wyandotte St.
Kansas City, MO 64108
(816)-931-0500
dparson@s1s-law.com

2
Jim Michaels
St. Louis Circuit Attorney's Office
1114 Market St., Suite 758
St. Louis, MO 63101
(314)589-6243
michaelsj@stlouiscao.org
I further certify that all parties required to be served have
been served.

Claudia Hammerman

